HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Program Support Centers Award Process for a Contract With Northrop
Grumman Space & Mission Systems Corporation," (A-03-06-00521)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Program Support Centers
Award Process for a Contract With Northrop Grumman Space & Mission Systems
Corporation," (A-03-06-00521)
August 22, 2007
Complete
Text of Report is available in PDF format (89 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The report is one of several
reviews of procurements by PSC and other components of the Department in
response to Hurricanes Katrina and Rita in 2005.
The objective of the audit was to determine whether PSC complied with Federal
Acquisition Regulation (FAR) and Health and Human Services Acquisition
Regulation requirements during the award process involving Northrop Grumman
Space & Mission Systems Corporation.  PSC generally complied with the
requirements.  However, PSC did not execute a written determination and findings
that no contract type other than a time-and-materials contract was suitable, as
required by the FAR.
OIG recommended that PSC execute a written determination and findings when
awarding time-and-materials contracts.  PSC agreed with the recommendation.